                             CLOSEOUT FOR M95010003
       On January 20, 1       9    9    5     , a program officer in the Division o f l l )
7-          -
            -
                              in the Directorate for Biological Sciences, informed OIG about
a brief note he had received. The note reuuested that the Dromam officer consider ~ending


a n d [ a former graduate student]." The names of two graduate students in the
Department o f l l a t u n i v e r s i t y were typed below the text of the note.

        OIG contacted one of the students whose name appeared on the note. The student said
that he had not sent the note to NSF, and he was not aware of anyone who did send it. He said
there had been authorship problems between his faculty advisor,,-                        and the
former graduate student. He said he did not know any details about the problems. Despite
being told of the confidential nature of OIG inquiries, the student informed both the department
chairman and the faculty advisor of our telephone call. OIG received telephone calls from both
individuals and shortly thereafter received a telephone call from the institutional official
responsible for the oversight of ethical issues.

        OIG learned that the former graduate student and the faculty advisor had not gotten along
well and this had fmally manifested itself as intensely personal arguments about the authorship
order on manuscripts that were to contain material from the student's dissertation and questions
about the accuracy of the student's data. The faculty advisor told us that, while he had initially
had concerns about the student's data, he now felt that the data were acceptable. He also said
that none of the manuscripts they had argued about the order of authorship on had been
published yet. The faculty advisor had voluntarily withdrawn from his former student's
dissertation committee, after a new committee was appointed. The student had completed his
dissertation research in the faculty advisor's laboratory under the new committee's direction.
The former student currently holds a prestigious postdoctoral position that was arranged by the
faculty advisor.

        The two discussed their problems with a committee composed of three deans that was
convened to resolve them. According to institutional officials, the department chairman, and
the faculty advisor, neither individual made allegations of misconduct in science against the
other. Both individuals are aware of the university's misconduct procedures and, when
sepmtely asked by the committee of deans, said they were not making allegations of misconduct
in science. As a result of their discussions, two agreements were signed by the faculty advisor
and the former student, and the two agreed to develop a third agreement after a "cooling off'
period.

                                          Page 1 of 2
       The fmt agreement simply stipulated that the faculty advisor and the former student
would each cease to say harmful things about the other. The second agreement was a detailed
plan defining the data set in dispute, outlining the access each would have to that data set,
assigning future credit for the data, outlining use of the data prior to and after the completion
of the student's dissertation, and describing each person's independent right to pursue future
avenues of research.

         OIG learned that there was no date specified for the preparation of the third agreement
and that either the former student or the faculty advisor can request independently that the
institution begin the p-ss   of drafting the agreement. To date, the institution has not received
such a request. Under the circumstances, the institution did not think it was reasonable to begin
independently drafting the third agreement.

        OIG concluded that, in this case, the problems between the faculty advisor and student
were not issues of misconduct in science. OIG learned of no allegations or evidence of "fraud"
involving the two individuals. The dispute between the former graduate student and his faculty
advisor appeared to be adequately addressed by the formation of a new dissertation committee
which provided the student with the opportunity to complete his research, and by the contents
of the two agreements signed by the former graduate student and the faculty advisor.

       OIG concluded there was no need to pursue these matters further. This inquiry is closed,
and no further action will be taken in this case.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
